HHS/OIG-AUDIT--Hospice Eligibility at the Visiting Nurse Association of Texas
(A-06-96-00027)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust:  Review of Hospice Eligibility at the Visiting
Nurse Association of Texas" (A-06-96-00027)
January 17, 1997
Complete
Text of Report is available in PDF format (763K). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit of Medicare hospice beneficiary
eligibility determinations at the Visiting Nurse Association of Texas Hospice (VNA)
in Dallas, Texas. This audit was part of Operation Restore Trust (ORT), a joint
initiative among various Department of Health and Human Services components. The
ORT seeks to identifiy specific vulnerabilities in the Medicare program and pursue
ways to reduce Medicares exposure to abusive practices.
The objective of our review was to evaluate hospice eligibility determinations
for beneficiaries that remained in hospice care for more than 210 days. We also
determined the amount of payments made to the Visiting Nurse Association of Texas
(VNA) for those Medicare beneficiaries that did not meet the Medicare reimbursement
requirements.
Our review included a medical evaluation of VNAs eligibility determinations
for 77 Medicare beneficiaries who had been in hospice care for more than 210 days.
Of the 77 cases, 55 were active in hospice at the time of our review and represent
28 percent of the 199 patients who were active Medicare hospice beneficiaries at
VNA as of February 8, 1996. Our review showed that 25 beneficiaries were not eligible
for hospice coverage at the time of admission. One of these 25 beneficiaries became
eligible 4 months after his first admission.
Our medical determinations were made by physicians who were consultants to the
Texas Medical Foundation, the Texas Peer Review organization (PRO). Staff from
the fiscal intermediary, Palmetto Government Benefits Administrators (PGBA), have
also reviewed narrative inforrriation written by the PRO physicians as well as
data extracted from medical files for each of the 77 cases. The PGBA agrees with
the PROs decisions.
We believe the identified discrepancies with the 25 beneficiaries occurred due
to inaccurate prognoses of life expectancy by hospice physicians based on the medical
evidence in the patients files. The VNA received Medicare payments for hospice
sefices totaling $1,242,806 for ineligible patients.
We are recommending that the intermediary:
-- Recover payments of $1,242,806 for the 25 beneficiaries who were not eligible
for Medicare hospice benefits; Recover payments made on behalf of ineligible
beneficiaries after February 29, 1996;
-- Coordinate with the Health Care Financing Administration (HCFA) in providing
training to hospice providers and physicians on eligibility requirements
for hospice beneficiaries, particularly the requirement for a 6-month prognosis;
-- Analyze utilization trends to identify hospices with large increases
in claims for beneficiaries with over 210 days of hospice coverage and
conduct medical reviews on a sample of their claims
-- Conduct periodic reviews of hospice claims to ensure the hospices
are obtaining sufficient medical information to make valid eligibility
determinations.
The intermediary responded to a draft of this audit report on November
18, 1996. The intermediary officials have reviewed information that
we provided and they concur with the eligibility determinations made
by the PRO physicians. However, they stated that they would be reluctant
to recover payments. These officials believe that the beneficiary
would be held liable in these situations and HCFA had instructed
them to educate providers rather than deny services for the time
period in question. The intermediary officials stated that hospice
data is currently included in the intermediarys focused medical
review data analysis process and its education department regularly
conducts education workshops on eligibility requirements for hospice
providers and physicians.
We will be working with HCFA on the beneficiary liability issue
and the recovery of overpayments from the hospice.